   DEPARTMENT-LEVEL ACCOUNTING ENTRIES FOR FY1999


Report No. D-2000-179                   August 18, 2000




             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932 or visit the Inspector
  General, DoD, Home Page at: www.dodig.osd.mil.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-2884

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, D.C. 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
DFAS                  Defense Finance and Accounting Service
ODO                   Other Defense Organizations
WCF                   Working Capital Fund
                         Office of the Inspector General, DoD
Report No. D-2000-179                                                   August 18, 2000
   (Project No. D2000FI-0063.004)
    (formerly Project No. 0FI-2115.04)

              Department-Level Accounting Entries for FY 1999

                                    Executive Summary

Introduction. The Chief Financial Officers Act of 1990, as amended by the Federal
Financial Management Act of 1994, requires DoD to prepare annual audited financial
statements. This is the third in a series of reports related to the DoD Agency-Wide
financial statements for FY 1999. In Inspector General, DoD, Report No. D-2000-091,
“Internal Controls and Compliance With Laws and Regulations for the DoD Agency-
Wide Financial Statements for FY 1999,” February 25, 2000, we identified
$6.9 trillion of department-level accounting entries. An additional $0.7 trillion
identified after the issuance of the first report, bringing the total to $7.6 trillion. On
February 16, 2000, we issued a disclaimer of opinion on the DoD Agency-Wide
financial statements for FY 1999.

The Military Departments, Defense agencies, and the Defense Finance and Accounting
Service (DFAS) are responsible for the reliable processing of financial management
data reported on the DoD financial statements. When DoD Components input data into
the finance and accounting systems, the reliability of the data as they are further
processed becomes the responsibility of DFAS. The DFAS centers provide finance and
accounting support to DoD organizations, including maintaining department-level
accounting records and preparing financial statements. The DFAS centers use amounts
reported through the accounting systems and information collected from data calls and
from other sources to compile the annual financial statements for DoD. The
compilation process is complicated because much of the financial data submitted to the
DFAS centers are not generated by integrated, transaction-driven, general ledger
accounting systems.

Objectives. Our overall objective was to determine whether the DoD Agency-Wide
financial statements for FY 1999 were prepared in accordance with Office of
Management and Budget Bulletin No. 97-01, “Form and Content of Agency Financial
Statements,” October 16, 1996, as amended January 2000. In support of the objective,
we identified the department-level accounting entries made to the DoD Component
financial data that were used to prepare departmental reports and the DoD financial
statements for FY 1999. We also reviewed the management control program as it
related to the audit objective. This audit was originally announced under Project
No. 0FI-2115.04.
Results. The DFAS centers processed approximately $7.6 trillion in department-level
accounting entries to DoD Component financial data used to prepare departmental
reports and DoD financial statements for FY 1999. Of the $7.6 trillion in department-
level accounting entries, $3.5 trillion were supported with proper research,
reconciliation, and audit trails. However, department-level accounting entries of
$2.3 trillion were made to force financial data to agree with various sources of financial
data without adequate research and reconciliation, were made to force buyer and seller
data to agree in preparation for eliminating entries, did not contain adequate
documentation and audit trails, or did not follow accounting principles. We identified
but did not have adequate time or staff to review another $1.8 trillion in department-
level accounting entries. The DoD Agency-Wide financial statements for FY 1999
were subject to a high risk of material misstatement. The sheer magnitude of
department-level accounting entries required to compile the DoD financial statements
for FY 1999 highlights the difficulties and problems that DoD encountered in
attempting to produce accurate and reliable financial information using existing systems
and processes. The largest number of department-level accounting entries were made
for the Navy General Fund because DFAS Cleveland Center processed both monthly
and year-end department-level accounting entries for the Navy General Fund. For
details of the audit results, see the Finding section of the report. See Appendix A for
details of the management control program as it relates to the processing of department-
level accounting entries.

Recommendation. We recommend that the Under Secretary of Defense (Comptroller)
establish an implementation strategy to eliminate unsupported department-level
accounting entries and to minimize other department-level accounting entries to the data
used to compile the DoD financial statements.

Management Comments. The Under Secretary of Defense (Comptroller) agreed that
DoD lacked integrated financial and non-financial feeder systems that would minimize
the need for department-level accounting entries to prepare financial statements. He
stated that DoD has drafted an implementation strategy to address the issue of
unsupported accounting entries during the preparation of financial statements. He also
stated that the $1.4 trillion of accounting entries for the Navy General Fund were
related to Marine Corps budgetary data that are entered and later reversed, and the data
have no impact on the official Navy General Fund financial statements. See the
Finding section for a discussion of management comments, and the Management
Comments section for the text of the comments.

Audit Response. The Under Secretary of Defense (Comptroller) comments on the
recommendation are responsive, but the statement regarding the $1.4 trillion of Navy
General Fund accounting entries is incorrect. Only approximately $948 billion of the
accounting entries were related to Marine Corps appropriations, and not all of the
accounting entries affecting Marine Corps appropriations came from budgetary data.
DFAS Cleveland Center was given the opportunity to provide evidence documenting
the reversal of the accounting entries and was not able to do so. Our audit of
accounting entries for the FY 2000 financial reporting cycle will include a more
detailed review of the process the DFAS Cleveland Center uses to make accounting
entries for the Marine Corps budgetary data.


                                            ii
Table of Contents

Executive Summary                                i


Introduction
     Background                                 1
     Objectives                                 2

Finding
     Department-Level Accounting Entries        3

Appendixes
     A. Audit Process
          Scope                                 13
          Methodology                           14
          Management Control Program            14
     B. Prior Coverage                          16
     C. Report Distribution                     17

Management Comments
     Under Secretary of Defense (Comptroller)   19
Background
    The audit was performed in response to the Chief Financial Officers Act of
    1990, as amended by the Federal Financial Management Act of 1994. This
    report is the third in a series of audit reports related to the FY 1999 DoD
    financial statements. The first report discusses the internal controls and
    compliance with laws and regulations for DoD and includes audit results of our
    review of department-level accounting entries. The second report discusses the
    preparation of the DoD Agency-Wide and DoD Components’ Statements of Net
    Cost and the reporting of performance measures in the Overview section of the
    DoD financial statements. This report discusses the department-level accounting
    entries for FY 1999 and incorporates the results of additional audit work
    completed since the issuance of the first report.

    Chief Financial Officers Act. The Chief Financial Officers Act of 1990, as
    amended by the Federal Financial Management Act of 1994, requires DoD to
    annually prepare audited financial statements. For FY 1999, DoD prepared
    financial statements for the following reporting entities: the Army, Navy, and
    Air Force General Funds; the Army, Navy, and Air Force Working Capital
    Funds (WCFs); the Army Corps of Engineers, Civil Works Program; and the
    Military Retirement Fund. Those financial statements, as well as accounting
    data from Other Defense Organizations (ODO) General Funds and WCFs, were
    used to produce the DoD financial statements for FY 1999.

    Responsibility for Reliable Financial Management Data. The Military
    Departments, Defense agencies, and the Defense Finance and Accounting
    Service (DFAS) are responsible for the reliability of financial management data
    reported on the FY 1999 financial statements. DFAS reported that
    approximately 80 percent of the data on the financial statements originated in the
    mixed systems owned by the Military Departments and Defense agencies.
    Mixed systems contain the day-to-day operating information to be translated into
    financial information and processed in finance and accounting systems to be
    useful for financial managers. Some examples of mixed systems are the
    acquisition and logistics systems. The reliable input, processing, and eventual
    reporting of financial data into the finance and accounting systems are the
    responsibility of the Military Departments and Defense agencies. When data are
    supplied to the finance and accounting systems, the reliability of the data as they
    are further processed becomes the responsibility of DFAS.

    Role of the DFAS Centers. The DFAS centers provide finance and accounting
    support to DoD organizations. Support includes maintaining department-level
    accounting records and preparing financial statements from general ledger trial
    balances and other financial data submitted by DoD field accounting entities and
    other sources. DFAS uses amounts reported through the accounting systems
    and information collected from data calls and from other sources to compile the
    annual financial statements. The compilation process is complicated because
    much of the financial data submitted to the DFAS centers are not generated by
    integrated, transaction-driven, general ledger accounting systems.

    The DFAS centers processed department-level accounting entries for the DoD
    reporting entities and ODO financial data. The DFAS centers did not prepare



                                         1
     accounting entries directly to the DoD financial statements for FY 1999.
     Accounting entries were processed into the DFAS accounting systems both by
     manual entries and system-generated entries.

     Previous Fiscal Year Review of Department-Level Accounting Entries. In
     FY 1998, DFAS processed department-level accounting entries to make
     financial data agree with various data sources and to add new data. DFAS made
     department-level accounting entries without properly researching and
     reconciling differences between the accounting data and other data sources or
     providing adequate audit trails. We identified $1.7 trillion in department-level
     accounting entries that were not supported by proper research, reconciliation, or
     adequate audit trails. Department-level accounting entries were made to the
     financial data for the Army General Fund, the Army WCF, the Navy General
     Fund, the ODO General Fund, and the Defense Logistics Agency WCF.

     DoD Financial Statements for FY 1999. The DoD financial statements for
     FY 1999 reported $599 billion in total assets, $999 billion in total liabilities,
     $378 billion in total net cost of operations, and $628 billion in total budgetary
     resources. On February 16, 2000, we issued a disclaimer of opinion on the
     DoD financial statements for FY 1999.

     Implementation Strategies. DoD acknowledged that financial management
     system deficiencies prevent it from producing auditable financial data. As an
     interim solution until compliant financial management and mixed systems are in
     place, DoD has been improving other aspects of its financial management
     through the development of DoD implementation strategies. In May 1998, the
     Deputy Chief Financial Officer began developing implementation strategies to
     achieve a favorable audit opinion on the DoD financial statements until
     compliant financial management and mixed systems were in place. As of
     January 2000, DoD had developed and approved a total of 12 implementation
     strategies.



Objectives
     Our overall objective was to determine whether the DoD Agency-Wide financial
     statements for FY 1999 were prepared in accordance with Office of
     Management and Budget Bulletin No. 97-01, “Form and Content of Agency
     Financial Statements,” October 16, 1996, as amended January 2000. In support
     of the objective, we identified the department-level accounting entries made to
     the DoD Component financial data used to prepare departmental reports and the
     DoD financial statements for FY 1999. In addition, we categorized the
     department-level accounting entries based on the reason for the entry. We also
     reviewed the management control program as it related to the audit objective.
     See Appendix A for a discussion of the audit process and our review of the
     management control program at the DFAS centers. See Appendix B for a list of
     prior audits at the DFAS centers related to the audit objectives.




                                          2
           Department-Level Accounting Entries
           During FY 1999, the DFAS centers processed approximately
           $7.6 trillion in department-level accounting entries to DoD Component
           financial data used to prepare departmental reports and the DoD financial
           statements for FY 1999. Of the $7.6 trillion, $3.5 trillion were
           supported, $2.3 trillion were unsupported or posted to invalid general
           ledger accounts, and $1.8 trillion were identified but not reviewed.
           Although some department-level accounting entries will always be
           necessary through the normal course of accounting operations and
           because of the complexity of DoD business practices, there are major
           concerns about the accounting entries because:

                  •   The DFAS centers had to process 451 department-level
                      accounting entries, valued at $1,525 billion, to add new data.
                      Many entries were made because DoD did not have adequate
                      integrated systems for compiling accurate and reliable
                      financial data.

                  •   The DFAS centers processed 360 department-level accounting
                      entries, valued at $602.7 billion, to correct errors.

                  •   The DFAS centers processed 10,161 accounting entries,
                      valued at $2,306 billion, for which DoD did not perform
                      proper research and reconciliation, maintain adequate
                      documentation and audit trails, and follow accounting
                      principles.

           As a result, the DoD financial statements for FY 1999 were subject to a
           high risk of material misstatement. The sheer magnitude of department-
           level accounting entries required for FY 1999 highlights the significant
           problems that DoD encountered in attempting to produce more accurate
           and reliable financial information using existing systems and processes.



Guidance
    Section 35, Title 31, United States Code. The requirements of the Federal
    Managers’ Financial Integrity Act of 1982 for an agency’s internal accounting
    and administrative controls were incorporated in section 3512, title 31, United
    States Code (31 U.S.C. 3512). That section requires DoD to establish and to
    implement internal accounting and administrative controls to provide reasonable
    assurance that “. . . revenues and expenditures applicable to agency operations
    are recorded and accounted for properly so that accounts and reliable financial
    and statistical reports may be prepared and accountability of the assets may be
    maintained.” In addition, 31 U.S.C. 3512 requires DoD to assess the
    effectiveness of the internal accounting and administrative controls established
    and implemented.




                                        3
    Office of Management and Budget Circular No. A-123. Office of
    Management and Budget Circular No. A-123, “Management Accountability and
    Control,” June 21, 1995, provides guidance to Federal managers on improving
    the accountability and effectiveness of Federal programs and operations by
    establishing, assessing, correcting, and reporting on management controls.
    Office of Management and Budget Circular No. A-123 requires Federal
    managers to promptly record, properly classify, and account for transactions to
    prepare timely and reliable accounts and reports.

    General Accounting Office “Standards for Internal Control in the Federal
    Government.” The General Accounting Office publication, “Standards for
    Internal Control in the Federal Government,” November 1999, provides an
    overall framework for internal control. The standards state the following:
               Control activities occur at all levels and functions of the entity. They
               include a wide range of diverse activities such as approvals,
               authorizations, verifications, reconciliations, performance reviews,
               maintenance of security, and the creation of related records which
               provide evidence of execution of these activities as well as appropriate
               documentation.

    In addition, the standards require clear documentation of all transactions and
    other significant events, and the documentation should be readily available for
    examination.

    DoD Guidance. DoD has issued guidance for the proper execution of
    department-level accounting entries. The DoD Financial Management
    Regulation, DoD Regulation 7000.14-R, volume 6A, “Reporting Policy and
    Procedures,” January 1998, addresses documentation and audit trails necessary
    to support department-level accounting entries. In addition, DFAS headquarters
    policy guidance issued in October 1999 established requirements for processing
    department-level accounting entries.



Department-Level Accounting Entries
    Department-Level Accounting Entries for FY 1999. The DFAS centers
    processed approximately $7.6 trillion in department-level accounting entries to
    the DoD Components’ financial data used to prepare departmental reports and
    the DoD Agency-Wide financial statements for FY 1999. The department-level
    accounting entries were processed to force financial data to agree with various
    data sources, to correct errors, and to add new data. Of the $7.6 trillion, proper
    research, reconciliations, and adequate audit trails supported $3.5 trillion of the
    department-level accounting entries. However, accounting entries of
    $2.3 trillion were made to force financial data to agree with various sources
    without adequate research and reconciliation, were made to force buyer and
    seller data to agree in preparation for eliminating entries, did not contain
    adequate audit trails and documentation, or did not follow accounting principles.
    Because of time and staff constraints, we identified but did not review
    $1.8 trillion of accounting entries and, therefore, we did not determine whether
    they were adequately supported. The following table identifies the results of our


                                             4
review of department-level accounting entries made to the DoD Components’
financial data. The data contained in the table have been updated to incorporate
the results of our additional audit work completed since the issuance of
Inspector General, DoD, Report No. D-2000-091, “Internal Controls and
Compliance With Laws and Regulations for the DoD Agency-Wide Financial
Statements for FY 1999,” February 25, 2000. That report addresses
$6.9 trillion in entries, which consisted of $2.6 trillion of supported accounting
entries, $2.3 trillion of unsupported accounting entries, and $2.0 trillion of
unreviewed entries.


              Department-Level Accounting Entries for FY 1999
                            (dollars in billions)
     Department-Level         Supported        Unsupported or      Not Reviewed      Total
     Accounting Entries        (entries)           Invalid           (entries)     (entries)
                                                  (entries)
  Army General Fund             $ 175.4               $ 290.2           $   4.1    $ 469.7
                                   (176)                 (192)             (12)       (380)
  Army Working                      54.0                 127.8              0         181.8
     Capital Fund                   (90)                 (105)               (0)      (195)
  Navy General Fund                158.9               1,463.2          1,781.5     3,403.6
                                   (276)               (9,348)          (4,789)    (14,413)
  Navy Working                     549.5                   48.0             7.3       604.8
     Capital Fund                   (35)                   (39)           (159)       (233)
  Air Force General Fund         1,156.1                   66.6             0       1,222.7
                                   (363)                   (89)              (0)      (452)
  Air Force Working                 90.5                   79.1            11.2       180.8
     Capital Fund                  (293)                 (245)             (32)       (570)
  ODO General Fund                 557.9                 179.9              0.5       738.3
                                    (62)                   (24)            (19)       (105)
 ODO Working                        65.7                   51.0             4.7       121.4
    Capital Fund                    (77)                 (119)             (4)*      (200)*
 Military Retirement               661.7                    0               0         661.7
 Fund                                (1)                     (0)             (0)        (1)
      Total                     $3,469.7             $2,305.8          $1,809.3    $7,584.8
                                 (1,373)              (10,161)          (5,015)    (16,549)

  *The scope of accounting entries reviewed for the ODO WCF was limited to Defense
  Logistics Agency entries processed by the DFAS Columbus Center ($12.2 billion) and
  ODO WCF entries processed by the DFAS Denver Center ($109.2 billion). Therefore,
  the total amount of accounting entries to the ODO WCF financial statements is unknown.


The reason the number and value of accounting entries for the Navy General
Fund is so much larger than for the other reporting entities was in part because
of the way financial data are processed by DFAS Cleveland Center. DFAS
Cleveland Center uses general ledger accounts and posts Navy financial data,
some of which impact the financial statements, every month and at year-end in
preparation for monthly and year-end reporting. The process used to prepare
financial statements varies from center to center and thus by Service and fund.
As a result, the number of department-level accounting entries processed by



                                           5
     each of the centers varies significantly. Monthly posting of financial data is in
     fact preferable to a once-a-year summary process as it provides an opportunity
     to adjust accounting reports to reflect the most current data.

     Comparison of Audit Work Performed for FYs 1998 and 1999. We
     reviewed portions of the department-level accounting entries for DoD reporting
     entities and identified approximately $1.7 trillion in unsupported entries made to
     selected reporting entities for FY 1998. Because of problems noted, we
     expanded the scope of our audit work for FY 1999. The DFAS Indianapolis
     Center made progress in reducing the unsupported department-level accounting
     entries that affect the Army General Fund financial statements. The DFAS
     Indianapolis Center decreased the amount of unsupported department-level
     accounting entries processed into the financial data used to compile the Army
     General Fund financial statements from $673 billion in FY 1998 to $290 billion
     in FY 1999.

     For FY 1999, we attempted to identify all the department-level accounting
     entries that the DFAS centers made. However, because of resource constraints
     and other accounting classification issues, we were not able to identify the total
     number of department-level accounting entries and their dollar values that the
     DFAS centers made to DoD Component financial data used to prepare
     departmental reports and the DoD financial statements for FY 1999.



Supported Department-Level Accounting Entries

     The DFAS centers processed 1,373 department-level accounting entries, valued
     at $3,470 billion, for which proper research and reconciliations were performed
     and adequate audit trails existed. The department-level accounting entries were
     made to do the following:

            •   enter new data into the accounting records,

            •   correct errors, and

            •   meet the requirements of accounting principles and other guidance.

     Data Entries. The DFAS centers processed 451 department-level accounting
     entries, valued at $1,525 billion, to add new data into the accounting records.
     The DFAS centers were required to process some department-level accounting
     entries, such as actuarial estimates, that could not be generated through
     transaction-driven integrated accounting systems. The data came from outside
     sources over which the DFAS centers had little or no direct influence. For
     example, DFAS processed a department-level accounting entry for
     $661.7 billion to record the liability for military retirement pensions. The
     department-level accounting entry was properly supported, and we verified that
     the amount was accurate. Although some department-level accounting entries
     were properly supported, they could not be verified through audit. For
     example, the DFAS centers processed department-level accounting entries,
     valued at $79.7 billion, to record environmental liabilities based on
     documentation that the Military Departments provided. However, because of


                                          6
     insufficient controls that DoD used to develop the estimates, auditors could not
     verify the accuracy of the reported amount. Also, DFAS processed a
     department-level accounting entry to record the $196 billion Military Retirement
     Health Benefits Liability. The Assistant Secretary of Defense (Health Affairs)
     acknowledged that the reported amount was unreliable.

     The DFAS centers also processed department-level accounting entries to add
     new data into the accounting records that normally should be generated through
     a transaction-driven integrated financial management system. Instead, the
     DFAS centers were forced to prepare data calls for field organizations to obtain
     amounts to be reported on line items such as property, plant, and equipment and
     inventory because the current financial management systems were not capable of
     generating that information. The information should be available to DoD
     managers throughout the year, not just reported through data calls conducted
     once a year. DoD developed long-term plans to correct all critical financial
     management system deficiencies. We will assess the adequacy of DoD
     long-term plans in separate audit reports. Therefore, we are not making
     recommendations in this report regarding DoD plans to correct financial
     management system deficiencies.

     Corrections of Errors. The DFAS centers processed 360 department-level
     accounting entries, valued at $602.7 billion, to correct accounting errors.
     Errors were created by field and department-level personnel and by deficiencies
     in automated systems. Errors should be minimized to ensure the integrity of the
     data used to prepare the financial statements. DoD should establish an
     implementation strategy addressing department-level accounting entries,
     including minimizing errors.

     Entries Required by Guidance. The DFAS centers processed 562 department-
     level accounting entries, valued at $1,342 billion, to record entries required by
     guidance. They included department-level accounting entries that were required
     by the DoD Financial Management Regulation and were properly supported.
     For example, the DoD Financial Management Regulation volume 11,
     chapter 55, requires that DoD inventory be valued at the latest acquisition cost
     for financial statement presentation. However, to record inventory on the
     financial statements at latest acquisition cost, DoD organizations that maintain
     inventory values at the selling price adjust the inventory values to latest
     acquisition cost by removing operating cost recovery amounts.



Unsupported or Invalid Department-Level Accounting Entries

     The DFAS centers processed 10,161 unsupported or invalid department-level
     accounting entries, valued at $2,306 billion. The department-level accounting
     entries were unsupported or invalid because of the following:

            •   they were made to force general ledger data to agree with data from
                other sources without adequate research and reconciliation;

            •   they were made to force buyer and seller data to agree in preparation
                for eliminating entries; and


                                         7
       •   they did not follow accounting principles, did not contain adequate
           supporting documentation, or did not contain adequate audit trails.

Entries to Force Financial Data to Agree With Various Sources. The DFAS
centers processed department-level accounting entries, valued at $431 billion, to
force financial data from various sources to agree without performing the proper
research and reconciliations. DFAS headquarters guidance requires that, when
accounting personnel process accounting entries made to force financial data
from various sources to agree, they must document the reason for the
discrepancy and explain how they determined the proper source to be correct.
For example, DFAS Indianapolis Center identified $148.5 billion of differences
between various financial data sources used to prepare the Army General Fund
financial statements. Instead of conducting the proper research to identify the
correct amount to be reported, the DFAS Indianapolis Center processed
51 department-level accounting entries to force the various amounts to agree
without performing the proper reconciliations. Without proper research and
reconciliation, management’s ability to support the financial data is impaired.
Proper research and reconciliation are important management responsibilities
and control required by the Office of Management and Budget and the General
Accounting Office.

Entries to Force Buyer and Seller Data to Agree. In FY 1999, DoD
conducted $111 billion worth of business between DoD Components. When
DoD prepared the DoD Agency-Wide financial statements for FY 1999, it
eliminated the effects of financial transactions among the DoD Components.
Amounts reported for revenues, expenses, assets, and liabilities should be
reported based on transactions with outside parties. Guidance that the Office of
the Under Secretary of Defense (Comptroller) issued requires that the DFAS
centers, in conjunction with the DoD Components, accumulate seller data and
use them to adjust the buyer accounts at the reporting entity level. We
identified department-level accounting entries, valued at approximately
$140 billion, that the DFAS centers processed to force buyer data to match
seller data in preparation for the eliminations on the DoD financial statements
for FY 1999 without conducting the proper research and reconciliations. The
Office of the Under Secretary of Defense (Comptroller) stated that the guidance
requiring the buyer and seller data to match was the result of U.S. Treasury
requirements. Even though DoD was making the entries as a result of
requirements over which it had no control, it made the entries without
performing the proper reconciliations as required by the Office of Management
and Budget and the General Accounting Office. Further details on entries to
force the buyer and seller data to agree and eliminations will be addressed in a
separate report.

Other Unsupported or Invalid Department-Level Accounting Entries. The
DFAS centers processed 9,755 department-level accounting entries, valued at
$1,735 billion, that did not follow accounting principles, did not contain
adequate supporting documentation, or did not contain adequate audit trails.
For example, DFAS Cleveland Center processed 9,348 department-level
accounting entries, valued at $1.5 trillion, that posted transactions to invalid
general ledger accounts. The transactions were not logical accounting and did
not follow accounting principles. Additional information on the entries to
invalid general ledger accounts is contained in Inspector General, DoD, Report
No. D-2000-137, “Accounting Entries and Data Processing for the FY 1999


                                    8
    Department of the Navy General Fund Financial Statements,” June 1, 2000. In
    addition, we identified numerous examples of documentation and audit trail
    problems. For example, DFAS Denver Center processed a department-level
    accounting entry for the Air Force WCF for which no documentation was
    attached to support the entry. Another example involved a department-level
    accounting entry that DFAS Cleveland Center processed for the Navy WCF that
    also did not have supporting documentation of any kind.



DoD Implementation Strategies
    As an interim solution until compliant financial management and mixed systems
    were in place, DoD was improving other aspects of its financial management
    through various initiatives. One such initiative was the development of DoD
    implementation strategies for financial management areas needing improvement.
    The implementation strategies are a step toward achieving a favorable audit
    opinion. However, the Inspector General, DoD; the Under Secretary of
    Defense (Comptroller); the Office of Management and Budget; and the General
    Accounting Office believe that the long-term plan needs to address additional
    areas related to financial management systems and processes. Although DoD
    developed 12 implementation strategies for various financial management areas
    needing improvement, it did not address department-level accounting entries.
    The department-level accounting entries is an area that DoD should address.



Summary
    DoD will always make some department-level accounting entries to reflect
    needed adjustments to the accounting data. However, DoD made many of the
    accounting entries to add new data into the accounting records because DoD
    lacked integrated financial management systems that meet Federal financial
    management system requirements and accounting principles. DoD
    acknowledged that deficiencies exist and developed long-term plans to correct
    all critical financial management systems.

    Although DFAS adequately supported $3.5 trillion of accounting entries, many
    could not be verified through audit, and $602.7 billion in entries were made to
    correct errors. In addition to its long-term system correction plans, DoD should
    focus efforts on improving the accuracy of accounting entries made and
    minimizing error corrections.

    DoD did not perform proper research and reconciliations, did not follow
    accounting principles in making accounting entries, and did not maintain
    adequate documentation and audit trails for $2.3 trillion of department-level
    accounting entries. The accounting entries indicate potential problems in DoD
    financial management systems and processes. Until compliant financial
    management systems are in place, DoD could improve the accuracy of its
    financial data by following accounting principles and including the proper
    support for any accounting entries made to the accounting records.


                                       9
    As a result of processing $7.6 trillion of department-level accounting entries, of
    which $2.3 trillion could not be supported or were made to invalid general
    ledger accounts, the DoD Agency-Wide financial statements for FY 1999 were
    subject to a high risk of material misstatement. The lack of research,
    reconciliation, and audit trails impaired the auditors’ ability to validate the
    department-level accounting entries. The magnitude of department-level
    accounting entries required to compile the DoD financial statements highlights
    the significant problems that DoD had in producing accurate and reliable
    financial statements with existing systems and processes.



Management Comments on Finding and Audit Response
    Management Comments. The Under Secretary of Defense (Comptroller)
    stated that the $1.4 trillion of department-level accounting entries for the Navy
    General Fund were related to the process that DoD used to reflect the Marine
    Corps budgetary data on monthly budgetary reports and that none of the
    $1.4 trillion was used to prepare the Navy General Fund financial statements.
    In addition, the Under Secretary of Defense (Comptroller) stated that the
    discussion of the accounting entries to record environmental liabilities and the
    Military Retirement Health Benefits Liability was contradictory and a source of
    confusion because the entries were classified as supported and suggested that we
    delete the discussion from this report.

    Audit Response. The Under Secretary of Defense (Comptroller) statement that
    the $1.4 trillion of Navy General Fund department-level accounting entries were
    related to Marine Corps budgetary data is incorrect. Only approximately
    $948 billion of the department-level accounting entries were related to Marine
    Corps appropriations, and based on our review of accounting during FY 2000,
    not all of the entries affecting Marine Corps appropriations that DFAS
    Cleveland Center entered came from the Marine Corps budgetary data. DFAS
    Cleveland Center was given the opportunity during the audit to provide evidence
    documenting the reversal of the department-level accounting entries for the
    Marine Corps budgetary data and was not able to do so. Our audit of
    department-level accounting entries for the FY 2000 financial reporting cycle
    for the Navy General Fund will emphasize a review of the process the DFAS
    Cleveland Center uses to make department-level accounting entries for the
    Marine Corps budgetary data.

    The $1.4 trillion in department-level accounting entries for the Navy General
    Fund are discussed in Inspector General, DoD, Report No. D-2000-137,
    “Accounting Entries and Data Processing for the FY 1999 Department of the
    Navy General Fund Financial Statements,” June 1, 2000.

    All of the $1.4 trillion of unsupported accounting entries that DFAS Cleveland
    Center processed for the Navy were made to invalid general ledger accounts.
    We classified the entries as “unsupported” because they were made to invalid
    general ledger accounts, and because DFAS Cleveland Center did not provide
    supporting documentation for the accounting entries. DFAS Cleveland Center
    has begun to initiate changes in how it processes and explains accounting



                                        10
    adjustments for FY 2000 department-level accounting entries. We are also
    working with DFAS Cleveland and Kansas City centers to eliminate the need for
    using invalid general ledger accounts.

    The amounts included on the financial statements for environmental liabilities
    and the Military Retirement Health Benefits Liability were estimates developed
    by outside sources, such as the Military Departments, and provided to DFAS.
    DFAS then processed the accounting entries using the correct debits and credits.
    However, because of insufficient controls used to develop the estimates,
    auditors were unable to verify whether the estimates provided to DFAS were
    accurate. It is significant to note the issues in this report because although
    DFAS followed proper procedures to record the liabilities, it had no certainty
    that the estimates themselves were reliable.

Recommendation and Management Comments
    We recommend that the Under Secretary of Defense (Comptroller) establish
    an implementation strategy to eliminate unsupported department-level
    accounting entries and to minimize department-level accounting entries to
    the data used to compile the DoD Component and DoD financial statements.
    The implementation strategy should include, but not be limited to the
    following:

           •   review and clarification of policies related to department-level
               accounting entries,

           •   review of financial management system plans to ensure
               requirements are included to eliminate unsupported and
               minimize other department-level accounting entries, and

           •   development of a metric to measure progress in eliminating
               unsupported and minimizing other department-level accounting
               entries.

    Management Comments. Although the comments from the Under Secretary of
    Defense (Comptroller) did not state specific concurrence with the
    recommendation, the Under Secretary of Defense (Comptroller) drafted an
    implementation strategy to address the issue of unsupported accounting entries
    during the preparation of financial statements. The Under Secretary of Defense
    (Comptroller) stated that DFAS; the Inspector General, DoD; and other DoD
    Components will meet to attempt to address the level of documentation to
    support accounting entries. In an attempt to reduce the number of unsupported
    accounting entries, the draft strategy requires that guidance be developed
    requiring approving officials to certify all categories of accounting entry
    vouchers.

    The Under Secretary of Defense (Comptroller) stated that the current process
    used to prepare the financial statements relies heavily on department-level
    accounting entries because the systems used to generate the financial data are
    not integrated. As system improvements are made, the financial statement
    process will become less dependent on department-level accounting entries.



                                       11
To measure progress in eliminating unsupported and minimizing other
department-level accounting entries, DFAS intends to use the Defense
Departmental Reporting System to produce the FY 2000 financial statements
and to identify the number and types of accounting entries processed.




                                 12
Appendix A. Audit Process

Scope
    Work Performed. We reviewed $5.8 trillion of the $7.6 trillion department-
    level accounting entries that the DFAS centers processed. The department-level
    accounting entries adjusted financial data used to prepare the DoD Component
    financial reports and financial statements for FY 1999. We reviewed guidance
    requiring or resulting in department-level accounting entries in addition to
    guidance on the documentation necessary to support the entries. We developed
    categories for use in classifying the department-level accounting entries that the
    DFAS centers processed and identified the type and scope of department-level
    accounting entries for FY 1999. We reviewed the department-level accounting
    entries to determine whether they were adequately supported, maintained
    adequate audit trails, and were in compliance with accounting principles.

    Limitations to Audit Scope. We attempted to identify all the department-level
    accounting entries made by the DFAS centers that impacted the DoD financial
    report and financial statements for FY 1999. However, because of resource
    constraints and other accounting classification issues, we were not able to
    identify the total number of department-level accounting entries and their dollar
    values made by the DFAS centers that may have impacted the DoD financial
    statements for FY 1999.

    DoD-Wide Corporate-Level Government Performance and Results Act
    Coverage. In response to the Government Performance and Results Act, the
    Secretary of Defense annually establishes DoD-wide corporate-level goals,
    subordinate performance goals, and performance measures. This report pertains
    to achievement of the following goal, subordinate performance goal, and
    performance measures.

           • FY 2001 DoD Corporate-Level Goal 2: Prepare now for an
             uncertain future by pursuing a focused modernization effort that
             maintains U.S. qualitative superiority in key warfighting capabilities.
             Transform the force by exploiting the Revolution in Military Affairs,
             and reengineer the Department to achieve a 21st century
             infrastructure. (01-DoD-2)

           • FY 2001 Subordinate Performance Goal 2.5: Improve DoD
             financial and information management. (01-DoD-2.5)

           • FY 2001 Performance Measure 2.5.1: Reduce the number of
             noncompliant accounting and finance systems. (01-DoD-2.5.1.)

           • FY 2001 Performance Measure 2.5.2: Achieve unqualified opinions
             on financial statements. (01-DoD-2.5.2.)




                                        13
    DoD Functional Area Reform Goals. Most major DoD functional areas have
    also established performance improvement reform objectives and goals. This
    report pertains to achievement of the following functional area objectives
    and goals.

           • Financial Management Area. Objective: Strengthen internal
             controls. Goal: Improve compliance with the Federal Managers’
             Financial Integrity Act. (FM-5.3)

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the Defense Financial Management high-risk area.



Methodology
    Use of Computer-Processed Data. We could not rely on the computer-
    processed data used to prepare the DoD Component and DoD Agency-Wide
    financial statements for FY 1999. DoD financial management systems were
    unreliable. DoD candidly addressed deficiencies in its financial management
    systems in the Annual Statement of Assurance, the DoD Financial Management
    Improvement Plan, and the management representation letter for the DoD
    financial statements for FY 1999. Unreliable computer-processed data were
    used in preparing the departmental entries, the financial statements, and this
    report because they were the only data available. We planned to continue to
    review the adequacy of existing and proposed financial management systems.

    Audit Type, Dates, and Standards. We performed this financial-related audit
    at the DFAS centers from July 13, 1999, through April 12, 2000. The audit
    was made in compliance with auditing standards established by the Comptroller
    General of the United States, as implemented by the Inspector General, DoD,
    and with Office of Management and Budget guidance; however, we limited our
    scope as noted in this appendix. The audit included tests of management
    controls as we considered necessary.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within the DoD. Further details are available on request.



Management Control Program
    DoD Directive 5010.38, “Management Control (MC) Program,”
    August 26, 1996, requires DoD organizations to implement a comprehensive
    system of management controls that provide reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program. We reviewed
    management controls over the DFAS centers’ processes and procedures for


                                       14
recording department-level accounting entries into the financial data used to
compile the DoD Component and the DoD financial statements for FY 1999.
We also reviewed management’s self-evaluation of controls over the DFAS
centers’ processes and procedures for department-level accounting entries.

Adequacy of Management Controls. We identified a material management
control weakness as defined in DoD Instruction 5010.40, “ Management
Control (MC) Program Procedures,” August 28, 1996. Management controls at
the DFAS centers were not adequate to ensure that all department-level
accounting entries were adequately supported. The details and results of
management control reviews at each of the DFAS centers will be addressed in
the reports on the financial statement compilation process at the individual
DFAS centers. The control weakness identified and our recommendation for
improvements are discussed in the finding in this report. The recommendation,
if implemented, will improve the controls over processing and adequately
supporting department-level accounting entries. A copy of this report will be
provided to the senior official responsible for management controls at the DFAS
centers.

Adequacy of Management’s Self-Evaluation. DoD identified in the Annual
Statement of Assurance for FY 1999 inadequacies in its accounting processes
and systems. However, the Annual Statement of Assurance does not
specifically address processing of department-level accounting entries. The
adequacy of management’s self-evaluation over the processes and procedures for
department-level accounting entries at each of the DFAS centers will be
addressed in the reports on the financial statement compilation process at the
individual DFAS centers.




                                   15
Appendix B. Prior Coverage

Inspector General
Inspector General, DoD, Report No. 99-258, “Compilation of the FY 1998 Army
Working Capital Fund Financial Statements,” September 23, 1999.

Inspector General, DoD, Report No. 99-191, “Compilation of the FY 1998 Financial
Statements for Other Defense Organizations,” June 24, 1999.

Inspector General, DoD, Report No. 99-180, “Journal Voucher Adjustments and
Processing of Data for the FY 1998 Navy General Fund Financial Statements,” June 7,
1999.

Inspector General, DoD, Report No. 99-153, “Compilation of the FY 1998 Army
General Fund Financial Statements at the Defense Finance and Accounting Service
Indianapolis Center,” May 12, 1999.




                                        16
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
  Director for Accounting Policy
Director, Defense Logistics Studies Information Exchange

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Finance and Accounting Service
   Director, Defense Finance and Accounting Service Cleveland Center
   Director, Defense Finance and Accounting Service Columbus Center
   Director, Defense Finance and Accounting Service Denver Center
   Director, Defense Finance and Accounting Service Indianapolis Center




                                          17
Non-Defense Federal Organizations and Individuals
Office of Management and Budget
General Accounting Office
  National Security and International Affairs Division
      Technical Information Center

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Management, Information, and Technology,
  Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform




                                          18
Under Secretary of Defense (Comptroller)
Comments




                   19
20
21
22
Audit Team Members
   The Finance and Accounting Directorate, Office of the Assistant Inspector
   General for Auditing, DoD, prepared this report.

     F. Jay Lane
     Salvatore G. Guli
     Richard B. Bird
     Jack L. Armstrong
     Cindi M. Miller
     Cheri D. Givan
     John E. Aber
     Noelle Blank
